App. 1
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
------------------------------------------------------------------------------------------------------------------

COLUMBIAN FINANCIAL
CORPORATION,
Plaintiff - Appellant,
v.
MICHELLE W. BOWMAN,
in her official capacity as
Bank Commissioner of Kansas;
DEPUTY BANK COMMISSIONER OF KANSAS,

No. 18-3121
(D.C. No. 2:14-CV02168-SAC-KGS)
(D. Kan.)

Defendants - Appellees.
------------------------------------------------------------------------------------------------------------------

ORDER AND JUDGMENT*
------------------------------------------------------------------------------------------------------------------

(Filed Apr. 12, 2019)
Before BRISCOE, McKAY, and HOLMES, Circuit
Judges.
In this § 1983 action, Plaintiff Columbian Financial Corporation alleges that it was denied procedural
and substantive due process when Defendants, the
Bank Commissioner of Kansas and the Deputy Bank
* This order and judgment is not binding precedent, except
under the doctrines of law of the case, res judicata, and collateral
estoppel. It may be cited, however, for its persuasive value consistent with Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.

App. 2
Commissioner of Kansas, declared the Columbian
Bank and Trust Company insolvent in 2008. Defendants moved for summary judgment, or in the alternative for judgment on the pleadings. Defendants argued
that res judicata barred Plaintiff ’s suit because Plaintiff previously sought judicial review of Defendants’ actions in Kansas state court. The district court agreed
and granted Defendants’ motion. Plaintiff timely appealed. Exercising jurisdiction pursuant to 28 U.S.C.
§ 1291, we affirm.
I
We discussed the underlying facts in a prior appeal.
Like many financial institutions, The
Columbian Bank and Trust Company [(the
“Bank”)] experienced financial difficulties
during the 2007-2008 financial crisis. These
difficulties led the FDIC to conduct an onsite
examination of the [B]ank and downgrade its
supervisory rating; months later, the [B]ank
entered into a consent agreement with the
FDIC and the state bank commission.
The consent agreement stated that the
FDIC and the state bank commission “had
reason to believe that the [B]ank had engaged
in unsafe and unsound banking practices,”
and the FDIC and the state bank commission
ordered the [B]ank to “cease and desist” from
those practices. The order stiffened regulatory
oversight of the [B]ank, requiring written

App. 3
liquidity analyses, projections on sources of liquidity and uses of funds, and review and
amendment of the [B]ank’s management policies. The [B]ank’s analyses, projections, and
policy amendments were to be submitted to
the state bank commission and the FDIC for
review and comment. The [B]ank complied
with these requirements.
Notwithstanding the [B]ank’s compliance, the state bank commission declared the
[B]ank insolvent [in August 2008], seized the
[B]ank’s assets, and appointed the FDIC as
receiver. The same day, the FDIC sold many of
the [B]ank’s assets to a third party in a prearranged sale.
Columbian Fin. Corp. v. Stork (Columbian I), 811 F.3d
390, 394 (10th Cir. 2016) (citation omitted). Defendants’ seizure of the Bank begat over a decade of litigation in state and federal courts.
A. Judicial Review in Kansas State Court
The Bank and its sole shareholder, Plaintiff Columbian Financial Corporation, sought judicial review
of the seizure in state district court in September 2008.
One of their arguments was that the “Commissioner
. . . intentionally deprived [them] of due process of law
as required by the Fourteenth Amendment to the
United States Constitution by seizing the [Bank] without any notice or any hearing on whether the [Bank]
was insufficiently capitalized or otherwise insolvent,

App. 4
and without following the procedures” required by
state law. App. Vol. II at 450.
The state district court agreed, finding that
“[s]ome substantive post-deprivation review is required in order to constitutionally ground the decision”
to seize a bank. Id. at 540 (citing Mathews v. Eldridge,
424 U.S. 319 (1976)). Accordingly, the state district
court remanded the case to the Office of the State Bank
Commissioner for a post-seizure hearing. The Bank
Commissioner presided over the hearing and, in April
2012, granted summary judgment in favor of the Office
of the State Bank Commissioner after finding that it
acted lawfully in declaring the Bank insolvent and appointing the FDIC as receiver.
The Bank and Plaintiff again sought judicial review. They argued that (1) “[t]he Commissioner’s actions, or the statute or rule and regulation on which
the Commissioner’s actions are based, violated the Due
Process Clause on its face or as applied by allowing the
Commissioner to seize a solvent, adequately capitalized bank;” and (2) “[t]he Commissioner violate[d] the
Due Process Clause by failing to provide a timely and
adequate hearing for the deprivation of [Plaintiff ’s]
liberty or property.” App. Vol. III at 598. The Commissioner moved to dismiss the petition for judicial review
as moot. The state district court agreed, finding that it
“lack[ed] jurisdiction to issue an opinion” “[b]ecause [it
could not] . . . provide the [Plaintiff ] with any relief.”
Id. at 617.

App. 5
Plaintiff appealed from the state district court’s
order dismissing the petition for judicial review. In the
Kansas Court of Appeals, Plaintiff argued that the
state “district court’s ruling, denying judicial review of
the Commissioner’s seizure order, leaves the Commissioner with unfettered and unchecked discretion to deprive citizens of property, in derogation of the
fundamental and bedrock princip[les] underlying due
process of law.” Id. at 631. Plaintiff raised, as one of its
“Issues to be Decided on Appeal,” the question of
whether the Commissioner’s seizure of the Bank,
based on a “novel interpretation” of state law, “den[ied]
[Plaintiff ] due process of law in violation of [the] Fourteenth Amendment to the United States Constitution.”
Id. at 633.
In its briefing before the Kansas Court of Appeals,
Plaintiff argued that the Commissioner denied it notice of the seizure by relying on “a novel interpretation
of its own regulation in the course of a civil enforcement action.” Id. at 651. Plaintiff maintained that this
“grant[ed] to the Commissioner unfettered and unchecked discretion on the proper interpretation of the
statute and . . . violate[d] due process.” Id. at 652 (quotation marks omitted). Plaintiff also argued that the
state courts had jurisdiction over its petition for judicial review because the lack of “judicial review of a
state bank closure . . . would create serious constitutional implications as it would deny banks and their
shareholders their fundamental right to due process.”
Id. at 661.

App. 6
The Kansas Court of Appeals “affirm[ed] the district court’s denial of relief because the Bank and
[Plaintiff ] . . . failed to meet their burden of proving
the invalidity of the Commissioner’s action under the
Kansas Judicial Review Act.” Columbian Bank & Tr.
Co. v. Splichal, 329 P.3d 557, 2014 WL 3732013, at *1
(Kan. Ct. App. 2014) (per curiam) (unpublished table
decision). Reviewing Plaintiff ’s due process arguments
de novo, the Kansas Court of Appeals held that postseizure process “was necessary to provide due process
to” Plaintiff. Id. at *9. The court explained that,
“[c]learly, [Plaintiff ] should be entitled to notice and an
opportunity to be heard, which was provided to them
when they received review from the Commissioner and
the Kansas courts under the KJRA.” Id. The court further noted that “it was the [first state] district court’s
remand of the judicial review action [to the Commission] which led to the substantive post-deprivation review that is required to constitutionally ground the
Commissioner’s decision to close the Bank, to seize its
assets, and to appoint a receiver.” Id. at *13 (citing
Mathews, 424 U.S. 319).
The Supreme Court of Kansas denied Plaintiff ’s
petition for review in June 2015. Plaintiff did not file a
petition for a writ of certiorari in the United States Supreme Court.
B. Section 1983 Action in Federal Court
While Plaintiff ’s appeal was pending in the Kansas Court of Appeals, Plaintiff filed this § 1983 action

App. 7
in the United States District Court for the District of
Kansas. Plaintiff sought equitable relief for alleged violations of its procedural and substantive due process
rights. Defendants moved to dismiss. In response, “the
district court ordered dismissal [of the equitable
claims] without prejudice under Younger v. Harris, 401
U.S. 37 (1971),” because state court review of Plaintiff ’s
petition for judicial review was ongoing. Columbian I,
811 F.3d at 393 (parallel citation omitted). Plaintiff appealed, but “the state proceeding terminated while
th[e] appeal was pending.” Id. Therefore, “we vacate[d]
dismissal of the equitable claims and remand[ed] these
claims to the district court so that it c[ould] reconsider
them without the need to abstain now that the state
proceedings ha[d] ended.” Id. at 395.
On remand, Plaintiff filed its First Amended Complaint, which is the operative pleading in this appeal.
Plaintiff again alleged violations of its procedural and
substantive due process rights by the Bank Commissioner of Kansas and the Deputy Bank Commissioner
of Kansas, acting in their official capacities. Plaintiff
sought “an injunction requiring Defendants to provide
[Plaintiff ] a hearing before a neutral judge or magistrate at which it may pursue injunctive relief sufficient
to remedy the injuries [Plaintiff ] has suffered arising
from the issuance of the Declaration [of insolvency],
the seizure of the Bank, and the appointment of the
FDIC as receiver.” App. Vol. I at 34. Defendants again
moved to dismiss. The district court granted Defendants’ motion to dismiss, finding that Plaintiff ’s claims
were barred by sovereign immunity. Columbian Fin.

App. 8
Corp. v. Stork (Columbian II), 216 F. Supp. 3d 1267,
1275 (D. Kan. 2016).
Plaintiff appealed for a second time. We again reversed after concluding that Ex parte Young, 209 U.S.
123 (1908), applied. We reasoned that Plaintiff had alleged an ongoing “violation of its due process rights . . .
because it [claimed that it] still has not received a
meaningful hearing.” Columbian Fin. Corp. v. Stork
(Columbian III), 702 F. App’x 717, 720 (10th Cir. 2017).
We noted that Plaintiff “seeks a hearing before an impartial hearing officer after sufficient opportunity for
discovery.” Id. (footnotes omitted). We ultimately concluded that Plaintiff had “identif[ied] injuries that
could be redressed by its requested relief—specifically,
a new hearing with adequate procedural protections—
which could overturn the insolvency finding and restore the Bank’s charter.” Id. at 723.
On remand, Defendants moved for summary judgment, or in the alternative for judgment on the pleadings, on the bases of res judicata and collateral
estoppel. Defendants also moved to stay discovery
pending the district court’s decision on their dispositive motion. The magistrate judge initially denied Defendants’ motion to stay discovery, but the district
court sustained Defendants’ objection to the magistrate judge’s order and stayed discovery pending its
decision on Defendants’ dispositive motion. The district court then granted Defendants’ dispositive motion, finding that res judicata barred the district court
from adjudicating Plaintiff ’s due process claims. Plaintiff timely appealed, challenging the district court’s

App. 9
rulings on the dispositive motion and the motion to
stay discovery.
II
“The district court’s ‘application of res judicata to
the facts [of a case] is a pure question of law subject to
de novo review.’ ”1 City of Eudora v. Rural Water Dist.
No. 4, 875 F.3d 1030, 1035 (10th Cir. 2017) (ellipsis
omitted) (quoting Plotner v. AT&T Corp., 224 F.3d
1161, 1168 (10th Cir. 2000)). “Federal courts must give
a state court judgment the same preclusive effect as
would its originating state.” Campbell v. City of Spencer, 777 F.3d 1073, 1077–78 (10th Cir. 2014). In Kansas,
“the doctrine of res judicata will bar a successive suit
[when] the following four elements [are] . . . met: ‘(a)
the same claim; (b) the same parties; (c) claims that
were or could have been raised; and (d) a final judgment on the merits.’ ” Cain v. Jacox, 354 P.3d 1196,
1199 (Kan. 2015) (quoting In re Tax Appeal of Fleet,
272 P.3d 583, 589 (Kan. 2012)). Even when these four
1

As the parties acknowledge, it is unclear whether the district court analyzed Defendants’ dispositive motion as a motion
for summary judgment or a motion for judgment on the pleadings.
The answer to this question determines whether we accept the
facts as alleged in Plaintiff ’s complaint, BV Jordanelle, LLC v.
Old Republic Nat’l Title Ins. Co., 830 F.3d 1195, 1200 (10th Cir.
2016) (motion for judgment on the pleadings), or examine the record for a genuine dispute of material fact, Clark v. Colbert, 895
F.3d 1258, 1261 (10th Cir. 2018) (motion for summary judgment).
The difference is immaterial for this appeal, which turns on the
extent to which Plaintiff raised, or could have raised, its due process claims during the judicial review proceedings in Kansas state
court.

App. 10
elements are met, res judicata “does not apply when
the party against whom the earlier decision is asserted
did not have a full and fair opportunity to litigate the
claim.” Kremer v. Chem. Constr. Corp., 456 U.S. 461,
481-82 & n.22 (1982) (quotation marks omitted).
Plaintiff does not dispute that this § 1983 action
involves the same parties as the prior state proceedings. Nor does Plaintiff contest that the Kansas Court
of Appeals entered a final judgment on the merits. Rather, Plaintiff argues that res judicata is inapplicable
because its due process claims were not ripe until the
end of the judicial review process in state court; the arguments it raised in the state judicial review proceedings are different from those raised in this § 1983
action; and it did not have a full and fair opportunity
to litigate in state court.
Plaintiff is correct that it needed to exhaust available state remedies before filing its § 1983 action, but
this exhaustion requirement does not deprive the
state judgment of preclusive effect. “In procedural due
process claims, the deprivation by state action of a
constitutionally protected interest in ‘life, liberty, or
property’ is not in itself unconstitutional; what is unconstitutional is the deprivation of such an interest
without due process of law.” Zinermon v. Burch, 494
U.S. 113, 125 (1990). “The constitutional violation actionable under § 1983 is not complete when the deprivation occurs; it is not complete unless and until the
State fails to provide due process.” Id. at 126. “[T]o determine whether a constitutional violation has occurred, it is necessary to ask what process the State

App. 11
provided, and whether it was constitutionally adequate.” Id.
However, “once [a] state court proceeding is finally
resolved, [a] litigant may not be able to challenge the
result entered in that state proceeding in federal court
because of preclusion principles.” B. Willis, C.P.A., Inc.
v. BNSF Ry. Corp., 531 F.3d 1282, 1300 n.21 (10th Cir.
2008) (citing San Remo Hotel, L.P. v. City & Cty. of San
Francisco, 545 U.S. 323, 341-46 (2005)). “[E]ven when
[a] plaintiff would have preferred not to litigate in
state court,” “[t]he relevant question . . . is not whether
the plaintiff has been afforded access to a federal forum; rather, the question is whether the state court”
judgment precludes the plaintiff ’s federal claims. Id.
(quoting San Remo Hotel, 545 U.S. at 342). Therefore,
Plaintiff ’s exhaustion argument does not alter our res
judicata analysis.
The claims alleged in this § 1983 action are not
different from those asserted in state court because
Plaintiff twice raised its due process claims in the state
judicial review proceedings.2 The Kansas Judicial

2

Plaintiff also argues that its “due process claims hinge on
facts that developed after the State Proceedings began.” Aplt. Br.
at 36. These facts include “whether the hearing [Plaintiff ] received was reasonably prompt, whether it offered a meaningful
remedy, whether [Plaintiff ] had an adequate opportunity to meet
the evidence against it, whether the Commissioner was a biased
hearing officer, and whether the Commissioner’s novel interpretation of the Kansas Banking Code deprived Columbian of its
right to fair notice.” Id. All of these facts were known to Plaintiff
when it filed its second petition for judicial review in state district

App. 12
Review Act allows a state court to set aside agency action “if it determines . . . [t]he agency action, or the
statute or rule and regulation on which the agency action is based, is unconstitutional on its face or as applied.” Kan. Stat. § 77-621(c). Plaintiff argued, in both
of its petitions for judicial review, that it was denied
due process when Defendants seized the Bank based
on a novel interpretation of state law and without
providing an adequate hearing.3 Even if Plaintiff had
not actually raised its due process claims under the
KJRA, res judicata applies to “claims that . . . could
have been raised” in a prior proceeding. Cain, 354 P.3d
at 1199. “Res judicata requires that all the grounds
and theories upon which a cause of action or claim is
founded . . . be asserted in one action or they will be
barred in any subsequent action.” Colo. Interstate Gas
Co. v. Beshears, 24 P.3d 113, 123 (Kan. 2001).
Finally, Plaintiff had a full and fair opportunity to
litigate its due process claims in Kansas state court. “A
court. Therefore, Plaintiff could have sought judicial review on
these grounds.
3
Plaintiff argues that Kansas courts follow the primary
right/primary wrong approach to res judicata and that, under
such an approach, its claim that the Bank was improperly seized
is distinct from its claim that it was denied due process. We do
not reach Plaintiff ’s argument about the primary right/primary
wrong approach because Plaintiff neither raised the argument in
the district court nor argues for plain error review on appeal.
Richison v. Ernest Grp., 634 F.3d 1123, 1130–31 (10th Cir. 2011).
Regardless, Plaintiff ’s assertion that it did not previously raise
its due process claims in the state judicial review proceedings is
plainly contradicted by the petitions for judicial review that
Plaintiff filed in Kansas state court.

App. 13
State may not grant preclusive effect in its own courts
to a constitutionally infirm judgment, and other state
and federal courts are not required to accord full faith
and credit to such a judgment.” Kremer, 456 U.S. at 482
(footnote omitted). “But . . . state proceedings need do
no more than satisfy the minimum procedural requirements of the Fourteenth Amendment’s Due Process
Clause in order to qualify for the full faith and credit
guaranteed by federal law.” Id. at 481. “The fact that [a
plaintiff ] failed to avail himself of the full procedures
provided by state law does not constitute a sign of their
inadequacy.” Id. at 485.
Plaintiff relies on Scroggins v. Kansas, 802 F.2d
1289 (10th Cir. 1986), to support its argument that it
did not have a full and fair opportunity to litigate its
due process claims in the judicial review proceedings
in Kansas state court. In Scroggins, the plaintiff was
fired from his job and contested the termination in a
state administrative proceeding. He was not precluded
from subsequently litigating a Title VII retaliatory discharge claim in federal court because, when he sought
review of the administrative decision in state court,
“the character of judicial review was both narrow and
conclusory.” Id. at 1293.
Plaintiff ’s reliance on Scroggins is misplaced because the Kansas state courts’ review of Plaintiff ’s due
process claims was neither narrow nor conclusory. As
just discussed, the KJRA allows a state court to set
aside agency action as unconstitutional. Kan. Stat.
§ 77-621(c). When a plaintiff raises a constitutional
claim under the KJRA, Kansas state courts review the

App. 14
claim de novo. Hemphill v. Kan. Dep’t of Revenue, 11
P.3d 1165, 1167, 1170 (Kan. 2000). In response to
Plaintiff ’s first petition for judicial review, the Kansas
district court found that Plaintiff was due additional
process and remanded for a post-seizure hearing.
When the Kansas Court of Appeals addressed Plaintiff ’s second petition for judicial review, it explained
that it “ha[d] unlimited review” over Plaintiff ’s “alleged due process violations.” Columbian Bank & Tr.
Co., 2014 WL 3732013, at *9. Therefore, res judicata
barred Plaintiff from relitigating its due process claims
once the Kansas Court of Appeals concluded that
Plaintiff was provided adequate “notice and an opportunity to be heard . . . when [Plaintiff ] received review
from the Commissioner and the Kansas courts.” Id.
III
Plaintiff argues that the district court erred by ordering a stay of discovery pending its decision on Defendants’ dispositive motion. We review the district
court’s decision to stay discovery for an abuse of discretion. Diaz v. Paul J. Kennedy Law Firm, 289 F.3d 671,
674 (10th Cir. 2002). The district court did not abuse
its discretion because the facts that Plaintiff sought to
develop in discovery were not essential to answering
the question of whether res judicata barred Plaintiff ’s
§ 1983 action. United States v. Supreme Court of New
Mexico, 839 F.3d 888, 904–06 (10th Cir. 2016); see also
Fed. R. Civ. P. 56(d) (explaining that a non-movant can
seek to defer consideration of a motion for summary
judgment by “show[ing] . . . that, for specified reasons,

App. 15
it cannot present facts essential to justify its opposition”). Plaintiff acknowledged, in its opposition to Defendants’ dispositive motion, that discovery was not
essential to its arguments. Plaintiff argued that it
“should be allowed to conduct discovery before judgment [wa]s granted,” but stated that it “c[ould] show
through testimony” that it had been deprived of “its
due process rights.” App. Vol. II at 324. Moreover, to decide whether Plaintiff ’s claims were precluded by prior
litigation in state court, the district court needed to examine the nature and scope of the prior litigation. Discovery would not have altered the district court’s
analysis.
IV
We AFFIRM.
Entered for the Court
Mary Beck Briscoe
Circuit Judge

App. 16
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF KANSAS
COLUMBIAN FINANCIAL
CORPORATION,
Plaintiff
vs.
MICHELLE W. BOWMAN,
in her official capacity as
Bank Commissioner of
Kansas, et al,

Case No.
14-22168-SAC

Defendants.
MEMORANDUM AND ORDER
(Filed May 17, 2018)
The plaintiff Columbian Financial Corporation
(“CFC”), as the sole shareholder of Columbian Bank
and Trust Company (“Bank”), originally brought this
action with the Bank against the Office of the Kansas
State Bank Commissioner (“OSBC”) and four commission officials under 42 U.S.C. § 1983. The action principally alleged denial of due process from the OSCB [sic]
declaring the Bank insolvent, seizing the Bank’s assets, and doing so without providing adequate constitutional protections and remedies before and after the
declaration and seizure. Twice this court granted motions to dismiss in favor of the defendants, and twice
the Tenth Circuit returned the case for further consideration. An understanding of these two instances is
helpful background for framing the pending dispositive motion.

App. 17
On the first motion to dismiss, the district court
agreed that abstention under Younger v. Harris, 401
U.S. 37 (1971), required the plaintiff ’s claims for injunctive and declaratory relief to be dismissed without
prejudice due to the pending state court matters. ECF#
30, pp. 12-13. The court dismissed the Bank as not a
person capable of bringing a § 1983 action and dismissed the OSBC as not a person amenable to suit under § 1983. Id. at pp. 13-14, 18. The court held that the
defendant Edwin G. Splichal was entitled to absolute
immunity for his role in presiding over the 2012 administrative hearing, in determining what discovery to
allow, and in deciding the parties’ cross-motions for
summary judgment. Id. at 22-25. Finally, on grounds
of qualified immunity, the court dismissed the individual capacity actions against the defendant J. Thomas
Thull, the former bank commissioner who issued the
declaration of insolvency; the defendant Deryl K.
Schuster, the bank commissioner coming into office in
April 2014; and the defendant Judi Stork, the acting
bank commissioner and deputy bank commissioner
during the relevant period. ECF# 30, pp. 25-38. The
plaintiffs appealed the Younger abstention ruling and
the qualified immunity rulings in favor of the defendants Stork and Thull.
While this order was on appeal, the circumstances
of this case for Younger abstention changed when the
pending state proceedings terminated in favor of the
defendants. Consequently, the Tenth Circuit “vacate[d]
dismissal of the equitable claims and remand[ed] these
claims to the district court so that it can reconsider

App. 18
them without the need to abstain now that the state
proceedings have ended.” Columbian Financial Corp.
v. Stork, 811 F.3d 390, 395 (10th Cir. 2016) (citation
omitted). The circuit court de novo reviewed and affirmed the district court’s dismissal of the defendants
Stork and Thull based on qualified immunity. The circuit court also found that the seizure of the bank’s assets and the appointment of a receiver without a prior
hearing did not violate a clearly established right and
that the delay in the post-deprivation hearing did not
violate a clearly established right.
On remand, the plaintiff filed an amended complaint with leave of the court granted over the defendants’ objections. ECF## 63 and 66. The defendants
then filed their next motion to dismiss the first
amended complaint asserting the lack of jurisdiction
and other legal defenses, including the failure to state
a claim for relief. ECF# 69. Their first issue was that
the plaintiff ’s remaining equitable action against the
defendants in their official capacities was barred by
the Eleventh Amendment. The defendants specifically
argued the plaintiffs were not seeking prospective relief against an ongoing violation within the exception
created by Ex Parte Young, 209 U.S. 123 (1908). Instead, the plaintiffs were seeking “backward-looking
relief ” against OSBC’s order of seizure and receivership. ECF# 70, pp. 11-16. Based on the parties’ arguments as briefed and presented to it, the district court
granted the defendants’ motion to dismiss for Eleventh Amendment immunity and did not address the

App. 19
balance of the issues presented in the defendants’ motion to dismiss.
On appeal, the Tenth Circuit construed the plaintiff ’s amended complaint to “allege[ ] an ongoing violation of federal law and [to] seek[ ] from the federal
court only prospective relief and other relief ancillary
thereto.” Columbian Financial Corporation v. Stork,
702 Fed. Appx. 717, 721 (10th Cir. 2017). The panel understood the plaintiff to be alleging an ongoing due
process violation from the denial of “a hearing before
an impartial hearing officer after sufficient opportunity
for discovery.” Id.1 Citing precedent that involved
claims such as ongoing exclusion from school, from employment, and from an approved vendors’ list, as well
as the ongoing denial of a hearing in each instance, the
panel saw no distinction between them and the plaintiff ’s claim here of just the ongoing denial of a constitutionally adequate due process hearing. Id. at 721-22.
The panel believed that an injunction giving the plaintiff another hearing fell within the Young exception. Finally, on the question of whether any meaningful relief
was available here pursuant to the Young exception,
Columbian argued for the first time on appeal:
Columbian contends that its right to a constitutionally adequate hearing exists independently of its ability to have the Bank’s
1

In footnotes, the Tenth Circuit summarized the plaintiff ’s
allegations that Splichal was not a neutral judge over the due process hearing and that Splichal denied them the opportunity to
depose Thull, “the sole decision-maker regarding the Bank’s closure.” 702 Fed. Appx. at 721 n. 2 and 3.

App. 20
assets restored. Moreover, it maintains that a
partial remedy is still available. Columbian
notes that, as a consequence of the seizure, it
lost not only the Bank’s assets but also the
Bank’s charter to conduct future business in
Kansas. And furthermore, Columbian argues
that the Declaration’s insolvency finding
could be held against in in [sic] a future application for a Kansas banking charter. Thus, Columbian argues that an opportunity to clear
its name in a proper due process hearing
would have “some effect in the real world” sufficient to avoid mootness of its procedural due
process claim. (citation omitted).
702 Fed. Appx. at 723. The Tenth Circuit held that “Columbian identifies injuries that could be redressed by
its requested relief—specifically, a new hearing with
adequate procedural protections—which could overturn the insolvency finding and restore the Bank’s
charter.” Id. The district court’s judgment was reversed
and remanded for further proceedings consistent with
the Circuit’s order and judgment.
Now on remand, there has been a substitution of
defendants with Michelle W. Bowman replacing Deryl
K. Schuster for the official capacity action against the
Bank Commissioner and with the titled position of
Deputy Bank Commissioner replacing Judi Stork.
ECF# 101. The plaintiff has propounded discovery requests for which the defendant Bowman sought an
extension of the response deadline and then sought
a stay after filing a dispositive motion. ECF## 102,
104 and 106. The Magistrate Judge denied the stay

App. 21
request, and review of that ruling is also pending before this court. ECF# 121. The district court has entered an order staying discovery pending the filing of
this order. ECF# 130. With the matters fully briefed
and before the court, the court takes up the defendant
Bowman’s motion for summary judgment, or in the alternative, judgment on the pleadings. ECF# 104.
Judicial Notice
In her motion, the defendant asks the court to take
judicial notice of all proceedings in this litigation and
all related commission proceedings and state court
proceedings. The court may take judicial notice of state
court documents. See Pace v. Swerdlow, 519 F.3d 1067,
1072-73 (10th Cir. 2008). In doing so, the court will follow the Tenth Circuit’s holding:
However, facts subject to judicial notice may
be considered in a Rule 12(b)(6) motion without converting the motion to dismiss into a
motion for summary judgment. See Grynberg
v. Koch Gateway Pipeline Co., 390 F.3d 1276,
1278 n. 1 (10th Cir. 2004) (citing 27A Fed.
Proc., L.Ed. § 62:520 (2003)). This allows the
court to “take judicial notice of its own files
and records, as well as facts which are a matter of public record.” Van Woudenberg ex rel.
Foor v. Gibson, 211 F.3d 560, 568 (10th Cir.
2000), abrogated on other grounds by McGregor
v. Gibson, 248 F.3d 946, 955 (10th Cir. 2001).
However, “[t]he documents may only be considered to show their contents, not to prove
the truth of matters asserted therein.” Oxford

App. 22
Asset Mgmt., Ltd. v. Jaharis, 297 F.3d 1182,
1188 (11th Cir. 2002).
Tal v. Hogan, 453 F.3d 1244, 1265 (10th Cir. 2006), cert.
denied, 549 U.S. 2007); see Winzler v. Toyota Motor
Sales U.S.A., Inc., 681 F.3d 1208, 1213 (10th Cir. 2012)
(“The contents of an administrative agency’s publicly
available files, after all, traditionally qualify for judicial notice, even when the truthfulness of the documents on file is another matter. (citations omitted).”).
Thus, the court will take judicial notice of the existence
and content of the orders and pleadings submitted and
publicly filed and take note of the content of what was
argued and what was decided. See Kaufman v. Miller,
2013 WL 4446977, at *2 (10th Cir. Aug. 21, 2013) (“[W]e
can take judicial notice of the contents of the habeas
petition to determine whether this claim had been presented in the district court. See Guttman v. Khalsa, 669
F.3d 1101, 1130 n. 5 (10th Cir.2012).”). But, the court
will not assume the truth or correctness of the matters
or facts alleged, asserted, or decided therein.
Legal Standards Governing Motion
Rule 56 mandates summary judgment “against a
party who fails to make a showing sufficient to establish the existence of an element essential to that
party’s case, and on which that party will bear the burden of proof at trial.” Celotex Corp. v. Catrett, 477 U.S.
317, 322, 106 S.Ct. 2548, 91 L.Ed.2d 265 (1986). “Of
course, a party seeking summary judgment always
bears the initial responsibility of informing the district

App. 23
court of the basis for its motion, and identifying those
portions of ‘the pleadings, depositions, answers to interrogatories, and admissions on file, together with the
affidavits, if any,’ which it believes demonstrate the
absence of a genuine issue of material fact.” Id. at
323, 106 S.Ct. 2548. This does not mean the moving
party must negate the other side’s claims or defenses
through affidavits. Id. Upon a properly supported motion for summary judgment, the nonmoving party
must go beyond the pleadings, that is, mere allegations
or denials, and set forth specific facts showing a genuine issue of material fact for trial, relying upon the
types of evidentiary materials contemplated by Rule
56. Id.
The court decides the motion “through the prism
of the substantive evidentiary burden.” Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 254, 106 S.Ct. 2505,
91 L.Ed.2d 202 (1986). Thus, a factual dispute is “material” only if it “might affect the outcome of the suit
under the governing law.” Id. at 248, 106 S.Ct. 2505. A
“genuine” factual dispute requires more than a mere
scintilla of evidence in support of a party’s position.
Id. at 252, 106 S.Ct. 2505. The purpose of Rule 56 “is
not to replace conclusory allegations of the complaint
or answer with conclusory allegations of an affidavit.”
Lujan v. Nat’l Wildlife Fed’n, 497 U.S. 871, 888, 110
S.Ct. 3177, 111 L.Ed.2d 695 (1990). At the summary
judgment stage, the court is not to be weighing evidence, crediting some over other, or determining the
truth of disputed matters, but only deciding if a genuine issue for trial exists. Tolan v. Cotton, ___ U.S. ___,

App. 24
134 S.Ct. 1861, 1866, 188 L.Ed.2d 895 (2014). The court
performs this task with a view of the evidence that favors most the party opposing summary judgment. Id.
Summary judgment may be granted if the nonmoving
party’s evidence is merely colorable or is not significantly probative. Liberty Lobby, 477 U.S. at 250-51, 106
S.Ct. 2505. Essentially, the inquiry is “whether the evidence presents a sufficient disagreement to require
submission to the jury or whether it is so one-sided
that one party must prevail as a matter of law.” Id. at
251-52, 106 S.Ct. 2505.
The defendants move, in the alternative, for judgment on the pleadings. “A motion for judgment on the
pleadings under Rule 12(c) is treated as a motion to
dismiss under Rule 12(b)(6),” Atlantic Richfield Co. v.
Farm Credit Bank of Wichita, 226 F.3d 1138, 1160
(10th Cir. 2000), and the same standards govern motions under either rule, Ward v. Utah, 321 F.3d 1263,
1266 (10th Cir. 2003). On either motion, the court considers only the contents of the complaint. Gee v.
Pacheco, 627 F.3d 1178, 1186 (10th Cir. 2010). The
court accepts as true “all well-pleaded factual allegations in a complaint and view[s] these allegations in
the light most favorable to the plaintiff.” Smith v.
United States, 561 F.3d 1090, 1098 (10th Cir. 2009),
cert. denied, 558 U.S. 1148 (2010). To withstand a Rule
12(b)(6) motion, “a complaint must contain enough allegations of fact, taken as true, to state a claim to relief
that is plausible on its face.” Al-Owhali v. Holder, 687
F.3d 1236, 1239 (10th Cir. 2012) (quoting Ashcroft v.
Iqbal, 556 U.S. 662, 678 (2009)). “The plausibility

App. 25
standard is not akin to a probability requirement, but
it asks for more than a sheer possibility that a defendant has acted unlawfully.” Iqbal, 556 U.S. at 678 (internal citation and quotation marks omitted). “Thus, in
ruling on a motion to dismiss, a court should disregard
all conclusory statements of law and consider whether
the remaining specific factual allegations, if assumed
to be true, plausibly suggest the defendant is liable.”
Kansas Penn Gaming, LLC v. Collins, 656 F.3d 1210,
1214 (10th Cir. 2011).
Background
Rather than restate all the uncontested facts appearing in this court’s prior orders, the Tenth Circuit’s
opinions, and the parties’ current and past filings in
this case, the court provides the following summary as
sufficient for the context of its ruling. The court does
not share the plaintiff ’s position that its § 1983 action
constitutes a routine federal case for which discovery
should occur before any summary judgment matters
are decided. By taking judicial notice of the publiclyfiled records which both sides have submitted as exhibits in this dismissal/summary judgment proceeding,
the court finds itself fully informed of all relevant rulings and facts and is well-positioned to rule on the arguments presented without the delay and burden of
additional discovery being shouldered. As reflected
in what follows, the court has been careful to review
the state court filings, because the plaintiff ’s federal
claims are being uniquely presented in an apparent effort to avoid the res judicata/collateral estoppel bar.

App. 26
In July of 2008, the state-chartered Bank with
federal-insured deposits consented to the entry of an
“Order to Cease and Desist” which required the Bank
to cease and desist from engaging in the listed “unsafe
or unsound banking practices and violations” and to
modify its operations and policies in numerous areas
and to report these changes. ECF# 70-1. CFC has alleged that the Bank complied with this order revising
its policies and submitting the required reports and
analyses which demonstrated the Bank’s financial
strength and liquidity. On August 22, 2008, without additional notice or a prior hearing, then-Bank Commissioner J. Thomas Thull issued a Declaration of
Insolvency and Tender of Receivership (“Declaration”)
finding, “the Commissioner is satisfied that the bank is
insolvent within the meaning of K.S.A. 9-1902(2) and
as such, the situation presents an immediate danger to
the public welfare justifying uses of this emergency
proceeding.” ECF# 117-6, p. 2. The Commissioner’s Declaration quoted this Kansas statute as providing, “A
bank or trust company shall be deemed to be insolvent
. . . (2) when it is unable to meet the demands of its
creditors in the usual and customary manner.” Id. The
Declaration directed that the Commissioner was taking charge of Bank’s “properties and assets.” Id. The
Declaration further appointed the Federal Deposit Insurance Corporation as receiver after finding that the
Bank “cannot resume business or liquidate its indebtedness to the satisfaction of depositors and creditors
and knowing further that the deposits of said bank are
insured by the Federal Deposit Insurance Corporation.” Id. On the same day as this seizure, the FDIC

App. 27
followed through with a pre-arranged sale of a substantial portion of the Bank’s assets.
The Declaration also notified the Bank it had “30
days to file an appeal petition for judicial review under
the Kansas Judicial Review Act, K.S.A. § 77-602 et
seq.” Id. at 3. A timely petition for review was filed. The
petitioners Bank and CFC argued, in part, that the
Bank “was not, in fact, insolvent within the meaning
of ” state law. ECF# 117-7, pp. 2-3. Eighteen months
later in March of 2010, the state district court entered
a judgment “denying relief to the” plaintiffs except for
“remanding this matter back to the State Banking
Commissioner and the State Banking Board for further proceedings consistent with” the district court’s
fifty-two-page opinion. ECF# 117-9, p. 53. The district
court’s opinion included an interpretation of the state
statute in question:
Thus, Petitioners’/Appellants’ assertion that
the phrase “is unable”, as used in K.S.A. 91902, means “insolvency” in actual fact is too
strict of a standard by which to measure the
authority of the Commissioner to seize a banking institution.
....
Thus, here, the legal question before the
Court, properly determined, would be not
whether the Columbian State Bank and Trust
Company was, in fact, insolvent, only whether
it reasonably appeared to be so at seizure and
that based on examination and reports available to the Commissioner at the time he was

App. 28
‘satisfied that it . . . cannot sufficiently . . .
resume business or liquidate. . . .” (K.S.A. 91905).
ECF# 117-9, pp. 35-36, 40. As these quotations show,
the district court interpreted the relevant Kansas statutes and established the governing legal standard on
insolvency which was followed throughout the administrative review proceedings.
CFC’s petition for judicial review also asserted the
denial of due process (lack of notice and hearing) in violation of the Fourteenth Amendment and 42 U.S.C.
§ 1983. ECF# 117-7, pp. 4-5. On this due process issue,
the state district court’s opinion included these conclusions of law:
It seems clear that bank seizures, given
their exigency, have long been excused from
any notice or pre-hearing seizure requirement
(citation omitted). However, such is not necessarily the case post-seizure. Some substantive
post-deprivation review is required in order to
constitutionally ground the decision. (citation
omitted). A bank seizure is not excepted. In
Woods v. Federal Home Loan Bank Bd., 826
F.2d 1400 (5th Cir. 1987), cert. denied, 485 U.S.
959, 108 S.Ct. 1221, 99 L.Ed.2d 422 (1988), a
review of the administrative record and an opportunity to submit evidentiary matters under standard summary judgment rules, by
which the case was presented to the Court,
was deemed constitutionally sufficient, particularly in light of the fact the financial institution had been the subject of in-house scrutiny

App. 29
by regulators for four years and was the subject of a formal cease and desist order. Id. at
pp. 1410-1413. . . .
....
Thus, since to date a seemingly constitutionally adequate post-seizure procedure has
been omitted here, and the consequences of
such an omission, given the record before the
court, is to disable an adequate remedy or adequate review, the justification or remedy for
such an omission needs further examination. . . .
Here, while the Commissioner, as noted,
purported to act under the emergency procedures granted in the Kansas Administrative
Procedure Act (K.S.A. 77-536), he, to the Court’s
knowledge, has not yet followed through with
a post-deprivation hearing (K.S.A. 77-536(e)).
If this is the case, the Court believes this was
error.
. . . Given the breadth of circumstances
affecting licensure that invoke a hearing when
a license is effected, clearly, then, a bank’s seizure and the effective termination of its operation as a going banking concern, as occurred
in present case, should command a hearing by
the directive of K.S.A. 77-512. . . .
If this is correct, then, at best here, Petitioners are before the Court appealing
“non-final agency action” as defined by K.S.A.
77-607(b)(2). . . .

App. 30
. . . . Thus, postponement of judicial review of the limited issue, as available in this
proceeding, provokes no more inadequate
remedy than that which presently exists
nor has substantial harm been shown to probably have been increased by such a postponement (K.S.A. 77-608(b)). Further, delay
for a K.S.A. 77-536(e) post-deprivation hearing certainly offends no public benefit disproportionately. Id. As such, Petitioners’ petition,
seen as a petition for interlocutory review,
would fail for the reason that K.S.A. 77-608’s
“non-final”, interim, relief could simply not be
sustained under K.S.A. 77-608(b) in fact or
law at the time the petition in this case was
filed.
....
Further, as noted earlier, given that the
record in this case lacks any precedent and
substantive constitutional development and
grounding that would be essential for meaningful judicial review or that could command
constitutional respect for any judicial order
entered, a remand to the agency for implementation of the hearing process contemplated by K.S.A. 77-536(e) seems warranted
from any perspective. Once such proceedings
are concluded, whether by hearing, meaningful stipulation, summary judgment, or admission, only then can judicial review, if elected,
be meaningfully and constitutionally exercised. However, this said, any future remedy

App. 31
as previously discussed would still be grossly
limited.
ECF# 117-9, pp. 44-52. Besides remanding the matter
for a post-seizure hearing under K.S.A. § 77-536, the
district court, as shown above, concluded as a matter
of law that a substantive review here post-seizure
would be constitutionally adequate, that such a procedure was provided by this statute, and that postponing
judicial review for this hearing would not make the
“grossly limited” future remedies any more “grossly
limited” than they already were. These rulings were
necessarily part of the state judicial review proceedings here.
Around two years later, in April of 2012, the OSBC
issued its sixteen-page decision granting summary
judgment against CFC and the Bank. ECF# 117-13. In
that decision, then-Commissioner Splichal characterized the issues in dispute as these:
The sole issues in dispute as a matter
of law are (1) whether Columbian Bank was
insolvent on August 22, 2008, when the former Bank Commissioner issued a Declaration
of Insolvency and (2) whether there were
grounds to appoint the FDIC as Receiver and
for the FDIC to continue serving as Receiver.
The parties are all in agreement that Summary Judgment as a matter of law is appropriate as there are no genuine material facts
in dispute. What is disputed between the parties are the conclusions that should be drawn
from the facts.

App. 32
ECF# 117-13, p. 9. In addressing the Bank’s arguments
against the OSBC’s failure to include its adequate
sources of liquidity in the formula, Splichal concluded,
in part:
The liquidity position of Columbian Bank
deteriorated even further leading up to its closure. Bankers Bank of Kansas withdrew its
line of credit to Columbian Bank. The FHLB
froze their line of credit. AVIVA (the bank’s
largest depositor) was in the process of withdrawing its funds by the end of the third quarter that year. By July 30, 2008, Columbian
Bank was notified the FDIC was taking bids
for the sale of the bank’s deposit accounts. The
bank was in dire condition.
Columbian Bank viewed its liquidity position through rose-colored glasses. The fact
that the bank had not improved its liquidity
position prior to the closing, despite having
had months of advance notice regarding the
regulator’s stance on its liquidity position, further justifies viewing the contingent liquidity
sources with skepticism and not including
them in the liquidity formula. If the liquidity
sources were as readily available as Columbian Bank now contends, then it presumably
could have and should have secured them well
in advance of the closing. In fact, Columbian
Bank’s brokered deposit plan dated August
15, 2008, recognized the risks involved with
the speculative sources of liquidity. As such,
the brokered deposit plan provides additional
support for the methodology used by the OSBC
to calculate the bank’s liquidity. (R. 154.) To

App. 33
conclude, the attempts of Columbian Bank to
improve its liquidity situation were simply too
little, too late.
ECF# 117-13, pp. 13-14. Splichal also rejected the
Bank’s reading of K.S.A. 9-1902(2) as to require an actual unsatisfied creditor’s demand before a finding of
insolvency. Id. at pp. 14-15. Splichal concluded that,
“[a] preponderance of evidence, that is clear and convincing in nature, demonstrates Columbian Bank was
insolvent, as defined in K.S.A. 9-1902(2), on August 22,
2008.” Id. at p. 15. This order notified the parties that
they had thirty days to file a petition for judicial review
under K.S.A. 77-613. Id. at p. 17.
In May of 2012, the Bank and CFC filed a new
twelve-page petition for judicial review in Shawnee
County District Court and “concurrently filed a materially identical Second Amended Petition for Judicial
Review” in the prior judicial review proceeding. ECF#
117-14, p. 1, n. 1. The petitioners claimed relief because:
a.

The Commissioner’s actions, or the statute or rule and regulation on which the
Commissioner’s actions are based, violates the Due Process Clause on its face
or as applied by allowing the Commissioner to seize a solvent, adequately capitalized bank.

b.

The Commissioner violated the Due Process Clause by failing to provide a timely
and adequate hearing for the deprivation
of Petitioner’s liberty or property.

App. 34
c.

The Commissioner acted beyond the jurisdiction conferred by law.

d.

The Commissioner has erroneously interpreted or applied the law.

e.

The Commissioner’s action is based on a
determination of facts that is not supported by evidence that is substantial
when viewed in light of the record as a
whole, which includes the agency record
for judicial review, supplemented by any
additional evidence received by the
Court.

f.

The Commissioner’s action is otherwise
unreasonable, arbitrary, or capricious.

ECF# 117-14, p. 12. The OSBC filed a motion to dismiss
the judicial review proceeding, arguing in part that
the petitioners had no effective remedy and were seeking only an advisory opinion. The Shawnee County
District Court in a six-page decision dismissed the action as moot. ECF# 117-16. The CFC and the Bank appealed. Mark McCaffree, current Vice President of
CFC, avers that OSBC “did not file the full agency administrative record with the District Court of Shawnee
County before the matter was dismissed as moot” and,
consequently, that the KCOA did not have the full
agency record on appeal. ECF# 117-1, p. 10, ¶ 48. The
KCOA regarded the record on appeal as “voluminous”
with “more than a thousand pages of documents.”
ECF# 117-19, p. 2.

App. 35
In their brief before the Kansas Court of Appeals,
the Bank and CFC argued their action was not moot
and advocated for the Kansas Court of Appeals to proceed in the following way:
The Court need not remand the case to
the district court because resolution of this
case turns on the proper interpretation of
the statutes conferring authority on the Commissioner to seize a bank and appoint a receiver—an issue this Court reviews de novo.
It is undisputed that the Bank never failed to
meet a depositor’s or creditor’s demand for
payment and that the Bank had a minimum
of $8 million in excess liquidity on the day it
was closed. The Commissioner’s apparent assumption that a bank must keep on hand sufficient cash to immediately and prematurely
pay future obligations which by regulatory
fiat have been selectively chosen for accelerated payment, and that he had authority to
seize and appoint a receiver for a bank utilizing such fuzzy math, is contrary to the governing statutes and conflicts with a century of
case law. When applying the law to the facts
found by the Commissioner, no conclusion can
be reached other than that Columbian Bank
was not insolvent, and that the Commissioner
exceeded his lawful authority by seizing and
appointing a receiver.
ECF# 117-17, pp. 12-13. Among the issues listed in
their forty-nine-page appellate brief, the Bank and
CFC argued for their statutory interpretation of insolvency, against the agency’s interpretation of insolvency

App. 36
as a denial of due process, and against the district
court’s conclusion that it lacked jurisdiction for mootness. Id. at p. 13. Instead of contesting the totals and
amounts calculated for the different factors, the appellants’ brief disputed Commissioner Splichal’s understanding and conclusions about these sums used in
determining the Bank’s liquidity position on August
21, 2008. Nonetheless, the appellants’ brief ended its
standard of review with, “When the controlling facts
are based on stipulations, an appellate court may determine de novo what the facts establish and need not
remand to the district court to reevaluate under the
proper legal standard.” Id. at p. 19-20 (citation omitted).
Consistent with that position, the appellants’ brief
opened its argument opposing the statutory interpretation used by the state district court and the Commissioner on summary judgment by stating:
There is no dispute that, on August 22,
2008—the day the Commissioner seized Columbian Bank—the Bank was showing a
profit, it was adequately capitalized, and that
it could and did meet all of its depositors’ and
creditors’ demands for payment that day. It is
also undisputed that the Bank had at least
$7,999,000 in excess cash, even after subtracting nearly $21 million from the Bank’s cash
sources to account for the Bank’s largest deposit account (the value of which had not
been, and was not expected to be, demanded
by the depositor). Vol. 15, p. 9-10, 12. The
Commissioner declared the Bank insolvent

App. 37
because of a concern as to whether the Bank
could pay off certificates of deposit maturing
the following week.
ECF# 117-17, p. 20. Additionally, the appellants argued that even if the statute allowed predicting future
solvency, the Commissioner’s determinations were inconsistent with the statute for including demands that
were not usual, customary and anticipated and for not
including future sources of liquidity. Id. at pp. 27-31.
Appellants framed this argument as a challenge to the
Commissioner’s erroneous interpretation and application of his statutory authority and not as a challenge
seeking judicial review on the adequacy of the entire
administrative record to sustain the Commissioner’s
findings. Id. at pp. 30-31. On the question of due process, the appellants expressly argued lack of notice
on the Commissioner’s statutory interpretation prior
to seizure and the Commissioner’s ongoing efforts to
avoid post-seizure judicial review of his actions. Id. at
p. 33-34. Specifically, “[t]he Commissioner seeks to
deny any sort of judicial review of his action whatsoever, and the district court erroneously abided. That is
unconstitutional.” Id. at p. 34.
On July 25, 2014, the Kansas Court of Appeals
(“KCOA”) issued its twelve-page opinion, 2014 WL
3732013, concluding:
Although we do not find this judicial review
action to be moot, we affirm the district court’s
denial of relief because the Bank and its
owner have failed to meet their burden of
proving the invalidity of the Commissioner’s

App. 38
action under the Kansas Judicial Review Act
(KJRA), K.S.A. 77-601 et seq.
ECF# 117-19, p. 2. The KCOA observed upfront:
At the outset, we note that the parties agree
that the facts of this judicial review action are
undisputed. Rather the issues presented in
this action are either questions of law or questions involving the application of the law to
the undisputed facts. Although the record is
voluminous and contains more than a thousand pages of documents, we will briefly summarize the facts that led to this appeal.
Id. The KCOA recognized that its review under the
KJRA was limited to “whether an agency erroneously
interpreted the law, whether it took an action based on
a determination of fact that was not supported by substantial evidence, or whether it acted unreasonably, arbitrarily, or capriciously.” Id. at p. 6 (citation omitted).
The KCOA recognized its “unlimited review over statutory interpretation without deference to the agency’s
interpretation.” Id. After concluding that the Bank and
the CFC had standing to seek judicial review under the
KJRA, the KCOA began its analysis of the mootness
issue by summarizing its understanding of CFC’s appeal:
On appeal, Columbian seeks to have us declare that the Bank was not insolvent, declare
that the Commissioner’s action was unconstitutional, declare that the Commissioner had
no authority to appoint a receiver, and to set
aside both the Declaration of Insolvency and

App. 39
Tender of Receivership entered on August 22,
2008, and the Decision on Summary Judgment Motions entered on April 18, 2012.
Columbian argues that such a declaration regarding the closure of the Bank, the seizure of
its assets, and the appointment of a receiver
could be a basis for a civil action. Moreover,
Columbian maintains that such a declaration
would clear its name. In addition, Columbian
contends that if the Commissioner’s determination of insolvency is allowed to stand, the
Columbian Financial Corporation will not be
able to charter another bank in Kansas.
ECF# 117-19, at p. 8. The relief sought in that appeal
is essentially the same relief that CFC presently seeks
in this federal action. The KCOA rejected the mootness
argument noting the Shawnee County District had correctly found the need for a substantive post-seizure review and “appropriately remanded the matter to the
Commissioner to conduct post-deprivation proceedings
under K.S.A. 77-536(e).” Id. at p. 9. Thus, when these
post-deprivation proceedings became final, the matter
was ripe for judicial review. The KCOA then held,
“[a]ccordingly, we will review the issues on the merits.
See Estate of Belden v. Brown County, 46 Kan. App. 2d
247, 288-89, 261 P.3d 943 (2011) (‘An appellate court
has a vantage point equal to that of the district court
when it comes to questions of law.’).” Id.
Because the appellants had argued that the Commissioner’s statutory interpretation of his authority to
seize and his ongoing efforts to evade judicial review
were a denial of due process, the KCOA held:

App. 40
In addition to finding that Columbian has
standing and the issues are not moot, we find
that the procedure utilized after the Declaration of Insolvency and Tender of Receivership
was necessary to provide due process to Columbian. Columbian argues that eliminating
judicial review of a state bank closure “would
create serious constitutional implications as
it would deny banks and their shareholders
to due process.” Columbian argues that this
court should apply Judge Theis’ analysis
where he stated that although bank seizures
have long been excused from any notice or
pre-seizure hearing requirement, that is not
necessarily the case post-seizure, and some
substantive post-deprivation review is required to constitutionally ground the decision.
The basic elements of procedural due process
are notice and an opportunity to be heard.
State v. Wilkinson, 269 Kan. 603, 608, 9 P.3d 1
(2000). Appellate review of alleged due process violations is a question of law over which
this court has unlimited review. Hemphill v.
Kansas Dept. of Revenue, 270 Kan. 83, 89, 11
P.3d 1165 (2000).
Columbian argues that banks and their owners are entitled to due process, citing Franklin
Sav. Ass’n v. Office of Thrift Supervision, 35
F.3d 1466, 1472 (10th Cir.1994), and Woods v.
Federal Home Loan Bank Bd., 826 F.2d 1400,
1411 (5th Cir.1987), which states that “owners
of a FSLIC-insured savings and loan association clearly have the constitutional right to
be free from unlawful deprivations of their

App. 41
property.” We agree. Clearly, Columbian should
be entitled to notice and an opportunity to be
heard, which was provided to them when they
received review from the Commissioner and
the Kansas courts under the KJRA.
ECF# 117-19, p. 10. The KCOA clearly understood the
appellants to be making a due process challenge, a
question of law. The KCOA also plainly held that the
Bank and CFC had received due process from the substantive post-seizure review conducted by the Commissioner which was then reviewed on the merits by
the Kansas courts under the KJRA.
Consequently, the KCOA took up the substantive
issues presented by the Bank and CFC in the judicial
review action. The first issue was whether the Commissioner exceeded his statutory authority by appointing a receiver when the Bank was alleged to still be
solvent. “Specifically, Columbian argues that the Commissioner erroneously interpreted the law when he
appointed a receiver based on only an appearance of
insolvency.” Id. at p. 10. The KCOA’s review of this statutory interpretation issue was unlimited. Id. Reading
in pari materia the relevant provisions, K.S.A. 9-1902,
1903, and 1905, in consideration with the Commissioner’s statutory duty of protecting the public, the
KCOA held:
Based on our reading of the Kansas Banking
Code, we find that the former Commissioner
was authorized to declare the Bank insolvent
under K.S.A. 9-1902(2), take charge of the
Bank and all of its assets under K.S.A. 9-1903,

App. 42
and appoint a receiver under K.S.A. 9-1905.
Moreover, we reject Columbian’s argument
that a finding of insolvency cannot be made
and that a receiver cannot be appointed until
actual demands for withdrawals have been
made and unsatisfied. Thus, we conclude that
the statute permits the Commissioner to reasonably consider future demands that will be
made on a bank in order to prevent imminent
harm to depositors and to the public.
ECF# 117-19, p. 11. Thus, the KCOA found that the
Kansas statutes were correctly interpreted by the
Commissioner as giving him the authority to act.
Under the title of “Substantial Evidence,” the KCOA
addressed the appellants’ alternative argument noting
first,
The Bank argues in the alternative that the
Commissioner’s conclusion that the Bank was
insolvent is not supported by substantial competent evidence. As indicated above, however,
the parties agree that the material facts are
undisputed. Although Columbian would be
entitled to relief under the KJRA if the Commissioner’s action was “based on a determination of fact, made or implied by the agency,
that [was] not supported . . . by evidence that
is substantial when viewed in light of the record as a whole,” Columbian does not argue it
is entitled to relief under this section of the
KJRA. Instead, in its standards of review section, Columbian alleges it is only challenging
interpretation of statutes and that this court
can determine de novo what the stipulated

App. 43
facts establish. As such, we will look to the
factual findings set forth in the Decision on
Summary Judgment Motions entered by the
Commissioner on April 18, 2012, and determine whether they are supported by substantial evidence.
Id. Relying on what the appellants had argued in their
brief, the KCOA understood first that CFC had chosen
to not argue for judicial review “in light of the record
as a whole,” even though it would have been entitled to
pursue such judicial review. Id. Instead, CFC’s challenge was with the Commissioner’s interpretation and
application of the Kansas statutes based on the uncontested/stipulated findings of fact in the Commissioner’s
summary judgment decision. In that regard, the KCOA
also addressed what CFC argued in the alternative
if CFC’s statutory interpretation challenge were rejected:
Columbian argues that if we find that the
Commissioner correctly considered demands
that would be made on the Bank on August
29, 2008, in determining the Bank’s liquidity
position on August 21, 2008, then the Commissioner erred in not also considering sources
of liquidity that were likely to be available to
the Bank on or before that future date.
Columbian’s arguments that the Commissioner failed to consider other sources of liquidity that might have been available to
the Bank by that “future date”—presumably
August 28, 2008—have no merit. The Commissioner considered each of the sources of

App. 44
liquidity, but ultimately determined that they
were too contingent to be reliable sources of
liquidity in determining solvency. The Commissioner did not fail to consider these
sources as a matter of statutory construction.
He found he could not consider these sources
because they were not likely to be available.
ECF# 117-19 p. 11. The KCOA specifically addressed
the appellants’ other arguments on the Commissioner’s classification of certain accounts, renewal of
brokered accounts, and the largest customer’s withdrawal of funds. The KCOA concluded its analysis as
follows:
Finally, Columbian argues that anything less
than a requirement of insolvency-in-fact violates due process. But the Commissioner did
find the Bank to be insolvent. So this argument fails to provide Columbian relief from
the Commissioner’s decision.
Columbian failed to meet its burden to show
that the Commissioner’s action was invalid.
We reviewed the record as a whole, including
evidence both supporting and detracting from
the Commissioner’s finding, and find that
the Commissioner’s decision is supported by
substantial evidence. Moreover, the Commissioner did not erroneously interpret the law or
act unreasonably, arbitrarily, or capriciously.
We, therefore, affirm the district court’s decision denying Columbian relief.
ECF# 117-19, p. 12. Despite the quoted language
above, Mr. McCaffree avers on behalf of CFC that, “The

App. 45
Kansas Court of Appeals’ Opinion . . . upheld the
OSBC’s interpretation of the banking statutes without
addressing Columbian’s argument that such an interpretation is unconstitutionally vague as applied to
Columbian.” ECF# 117, ¶ 81; ECF# 117-1, ¶ 52. Almost
one year after the KCOA’s opinion, the Kansas Supreme Court denied review.
First Amended Complaint in Federal Action
Following the Tenth Circuit’s first remand, CFC
filed an amended complaint with leave of the court.
ECF# 66. CFC’s allegations appear chronologically. For
what led up to the OSBC’s order declaring the Bank
insolvent and seizing the Bank’s assets, CFC’s relevant
allegations are the following. The Bank strengthened
its liquidity position after the agreed cease and desist
order by offering competitive certificates of deposit, by
finding a purchaser for some Texas property, and by increasing its line of credit with the Federal Reserve
Bank (“FRB”). The Bank had positive excess liquidity
as of August 22, 2008, which would continue through
at least August 28, and yet, the OSBC seized the Bank
on a finding that it was insolvent and unable to meet
the demands of its creditors in the usual and customary manner. The OSBC’s decision was based on forecasted illiquidity which assumed the Bank would pay
off debts accruing on August 28 with only that cash
available on August 22. The OSBC’s projections did not
include FRB’s increased line of credit, the anticipated
deposit growth, or the Texas property sale. The OSBC
“misrepresented” the usual and customary demands

App. 46
by assuming the Bank’s largest customer would withdraw all deposits immediately when “there was no
threat of the entire deposit being withdrawn earlier
than September 30, 2008.” ECF# 66, p. 8, ¶ 40.
As to the proceedings after the OSBC’s Declaration, CFC’s relevant allegations are the following. OSBC
attempted, but failed, to deny OSBC a post-deprivation
hearing. The OSBC’s post-deprivation hearing was
constitutionally deficient because CFC was denied
the opportunity to depose Mr. Thull, the Bank Commissioner who decided, signed, and sent out the Declaration of Insolvency and Tender of Receivership. Without
Thull’s deposition, CFC says it was prevented “from determining the precise justifications and calculations
relied upon in closing the Bank, and [was] impeded [in]
its ability to prove the Bank should not have [been] declared insolvent.” ECF# 66, p. 10, ¶ 49. CFC alleges
that Commissioner Splichal’s summary judgment order
was deficient for applying an erroneous interpretation
of “insolvency.” CFC also alleges this administrative
proceeding was illusory due process because Commissioner Splichal could not grant meaningful relief in the
form of an injunction or monetary damages.
As to the judicial review proceedings following
the post-seizure administrative hearing, CFC makes
the blanket allegation that the state courts “rubberstamped the OSCG’s [sic] unconstitutional conduct.” ECF#
66, p. 12. CFC summarizes these judicial proceedings
as the state district court finding that CFC “was not
entitled to judicial review” and then granting OSBC’s
motion to dismiss, followed by the COA “affirm[ing]”

App. 47
the district court in “an unpublished per curiam opinion.” Id. CFC alleges its arguments on appeal addressed only Thull exceeding his statutory powers in
closing the Bank and the district court having jurisdiction to review the OSBC’s actions. ECF# 66, p. 12, ¶ 58.
CFC further alleges the KCOA erred on appeal:
60. Beyond merely affirming the district
court on the legal issues raised [sic] CFC, the
court of appeals made factual findings regarding the propriety of the OSBC’s actions. Such
findings were improper because there was no
evidentiary record before the court of appeals.
The OSBC did not file the agency record from
its administrative proceedings with district
court (as is its responsibility under K.S.A. 77620(a)) before the district court dismissed the
petition for review. Accordingly, the agency
record was not transmitted to the court of appeals either.
ECF# 66, p. 12. CFC alleges its exhaustion of remedies
under state law was complete with the Kansas Supreme Court’s denial of the petition for review.
CFC’s amended complaint asserts three counts of
relief under 42 U.S.C. § 1983. Count one alleges denial
of procedural due process in the seizing of the Bank
and its assets without providing CFC with a hearing
“at a meaningful time and in a meaningful manner” or
with a post-seizure hearing at which meaningful relief
was available. Count one also asserts the post-seizure
proceeding and judicial review of it did not provide
due process “because at no time did CFC have an

App. 48
opportunity to receive injunctive or monetary relief
that would have provided it an adequate remedy.”
ECF# 66, ¶ 71.
Count two alleges denial of procedural due process
in the seizing of the bank pursuant to state statutes
that were unconstitutionally vague in failing to provide fair notice of what alleged conditions in the Bank
would justify a finding of insolvency and seizure. CFC
alleges its “property interest in the Bank as the Bank’s
sole shareholder was protected by the due process
clause of the Fourteenth Amendment.” Id. at ¶ 81. In
this count, CFC also alleges that, “The projections Defendants relied upon in finding that the Bank might be
able to meet the demand of a creditor at a future date
arbitrarily and unreasonably ignored sources of liquidity available to the Bank, and grossly overstated the
demands the Bank would face in the normal course of
business.” Id. at ¶ 79.
Count three alleges a malicious and intentional violation of its substantive due process by the defendants issuing the Declaration and seizing the Bank
based on incomplete projections of liquidity and misrepresentations of liabilities and without evidence that
the Bank was unable to meet its creditors’ demands in
the usual and customary manner.
CFC’s prayer for relief asks for judgment in its favor and:
b. an injunction requiring Defendants to provide CFC a hearing before a neutral judge or
magistrate at which it may pursue injunctive

App. 49
relief sufficient to remedy the injuries CFC
has suffered arising from the issuance of the
Declaration, the seizure of the Bank, and the
appointment of FDIC as receiver;
c. the award of attorneys’ fees and costs as
provided for under 42 U.S.C. § 1988(b);
d. the award of such other relief as this
Court may deem just and proper.
ECF# 66, p. 17.
Res Judicata and Collateral Estoppel
The defendants principally argue that the plaintiff ’s § 1983 due process claims, procedural and substantive, are subject to the doctrinal bars of res judicata and
collateral estoppel. Having fully disputed the manner
and substance of the Bank’s seizure and receivership
in the post-deprivation administrative proceedings
provided by the OSBC, CFC concluded them by submitting all issues for final decision before the presiding
officer Commissioner Splichal. CFC then pursued and
received judicial review of this administrative decision
with the Kansas Courts. The plaintiff ’s due process
claims pending in federal court are all matters that either were decided in these state proceedings or that
could have been decided in them. CFC had a full and
fair opportunity to litigate all due process challenges
in the state proceedings. CFC had the remedies available under the Kansas Judicial Review Act (“KJRA”)
which provides that the party asserting an agency
acted invalidly carries the burden of proof and that a

App. 50
court may grant relief only after determining one of the
following:
(1) The agency action, or the statute or rule
and regulation on which the agency action is based, is unconstitutional on its
face or as applied;
(2) the agency has acted beyond the jurisdiction conferred by any provision of law;
(3) the agency has not decided an issue requiring resolution;
(4) the agency has erroneously interpreted or
applied the law;
(5) the agency has engaged in an unlawful
procedure or has failed to follow prescribed procedure;
(6) the persons taking the agency action were
improperly constituted as a decisionmaking body or subject to disqualification;
(7) the agency action is based on a determination of fact, made or implied by the
agency, that is not supported to the appropriate standard of proof by evidence that
is substantial when viewed in light of the
record as a whole, which includes the
agency record for judicial review, supplemented by any additional evidence received by the court under this act; or
(8) the agency action is otherwise unreasonable, arbitrary or capricious.

App. 51
K.S.A. 77-621(c). The defendants argue the statutory
breadth of available judicial review encompasses the
plaintiff ’s due process claims which could have been
fully advanced in the state judicial review proceedings.
Finally, the defendants point to the KCOA’s “thorough
decision” that expressly found “CFC had been afforded
sufficient due process” in the post-deprivation administrative proceedings and judicial review. ECF# 105,
p. 21.
CFC contends these doctrinal bars are inapplicable because it was not afforded due process in the administrative proceedings or in the subsequent judicial
review. CFC notes the burden is with the defendants
asserting the doctrinal bar to show the agency proceeding was “judicial in nature” and provided “sufficient
due process protections.” Zimmerman v. Sloss Equipment, Inc., 72 F.3d 822, 826 (10th Cir. 1995) (citing
Murphy v. Silver Creek Oil & Gas, Inc., 17 Kan.App.2d
213, 837 P.2d 1319, 1321 (1992)). CFC advocates following Scroggins v. Dep’t of Human Res., 802 F.2d
1289, 1293 (10th Cir. 1986), to conclude that CFC
did not have a full and fair opportunity to litigate the
merits of its due process claims. CFC points to provisions within the Kansas Administrative Procedure Act
(“KAPA”), 77-501, et seq., which limits discovery to that
“allowed by the presiding officer,” K.S.A. 77-521(a), and
which frees the presiding officer from being “bound
by technical rules of evidence,” K.S.A. 77-524(a). CFC
complains that it was prevented from deposing Bank
Commissioner Thull who signed the Declaration and
that the presiding officer Splichal imputed a state of

App. 52
mind to Thull without giving CFC the opportunity
to cross-examine Thull. CFC challenges the judicial
review as insufficient because the district court dismissed its petition as moot and because the KCOA did
not have the full administrative record before it and
did not address Columbian’s argument that OSBC’s interpretation of the Kansas banking statutes was unconstitutionally vague. Due to these argued procedural
failures, CFC opposes giving preclusive effect to the
agency decision and judicial review findings.
Next, CFC argues its claims are not barred by res
judicata because they could not have been brought in
the prior proceedings. CFC argues its procedural due
process claim in count one arises from the defendants’
behavior in the administrative and judicial review proceedings and “res judicata does not bar claims . . . predicated on events that postdate the filing of the initial
complaint.” ECF# 117, p. 37. CFC also insists that raising its procedural challenges before the KCOA “would
have been unavailing,” because the district court did
not reach the merits and because the issues were not
raised in the administrative proceeding. “Finally, and
most significantly, Columbian’s due process injuries
were not ripe until the Kansas Supreme Court denied
Columbian’s petition for review, because until then, it
was possible (however unlikely) that the OSBC or the
Kansas courts would provide Columbian due process.”
Id. (citations omitted). CFC believes its due process
claim “had not taken its fixed and final shape, . . . , until it became clear that no remedy would be forthcoming from Kansas state courts.” Id. at p. 38.

App. 53
Under the Full Faith and Credit act, “[f ]ederal
courts must give to state court judgments ‘the same
full faith and credit . . . as they have by law or usage in
the courts of such State, Territory or Possession from
which they are taken.’ ” Pohl v. U.S. Bank for Merrill
Lynch First Franklin Mortgage Loan Trust Back Certificates Series 2007-4, 859 F.3d 1226, 1229 (10th Cir.
2017) (quoting 28 U.S.C. § 1738). The courts must “ ‘ascertain what preclusive effect [the state] would give
its own decision before we may know what effect it
should be given in the federal court.’ ” Id. (quoting
Stifel, Nicolaus & Co. v. Woolsey & Co., 81 F.3d 1540,
1544 (10th Cir. 1996)). “Section 1983, . . . , does not
override state preclusion law and guarantee petitioner
a right to proceed to judgment in state court on her
state claims and then turn to federal court for adjudication of her federal claims.” Migra v. Warren City
School Dist. Bd. of Ed., 465 U.S. 75, 85 (1984) (public
policy behind § 1983 justifies no distinction between issue preclusion and claim preclusion effect of state
judgments). The Supreme Court, however, recognizes a
“ ‘full and fair opportunity’ exception to full faith and
credit.” Phelps v. Hamilton, 122 F.3d 1309, 1322 (10th
Cir. 1997) (citing Allen v. McCurry, 449 U.S. 90, 95
(1980)).
Because res judicata is an affirmative defense, the
burden of proof rests with the defendant. Nwosun v.
Gen. Mills Rests., Inc., 124 F.3d 1255, 1256 (10th Cir.
1997), cert. denied, 523 U.S. 1064 (1998). The defense
can be presented in a motion for judgment on the
pleadings based on the pleadings in the case and on

App. 54
records from prior cases with the same parties. See
Merswin v. Williams Cos., Inc., 364 Fed. Appx. 438, 441
(10th Cir. 2010); see also Q Int’l Courier, Inc. v. Smoak,
441 F.3d 214, 216 (4th Cir. 2006) (“When entertaining
a motion to dismiss on the ground of res judicata, a
court may take judicial notice of facts from a prior judicial proceeding when the res judicata defense raises
no disputed issue of fact.”). The court may “take judicial notice of publicly-filed records in our court and certain other courts concerning matters that bear directly
upon the disposition of the case at hand.” United States
v. Ahidley, 486 F.3d 1184, 1192 n. 5 (10th Cir.) (citations
omitted), cert. denied, 552 U.S. 969 (2007).
Under Kansas law, “[r]es judicata (claim preclusion) prevents the relitigation of claims previously
litigated and contains four elements: (1) same claim;
(2) same parties; (3) claims were or could have been
raised; and (4) a final judgment on the merits.” Neunzig
v. Seaman Unified School Dist. No. 345, 239 Kan. 654,
660-61, 722 P.2d 569 (1986). “Collateral estoppel (issue
preclusion) prevents the relitigation of issues previously litigated, and, if res judiciata is found to apply,
there is no need to consider the application of collateral
estoppel. Neunzig, 239 Kan. at 661, 722 P.2d 569 (citations omitted). “The doctrine of res judicata rests upon
considerations of economy of judicial time and public
policy which favors establishing certainty in judgments.” Neunzig, 239 Kan. at 662, 722 P.2d 569 (citation omitted). “The doctrine of res judicata (or claim
preclusion) prohibits a party from asserting in a second lawsuit any matter that might have been asserted

App. 55
in the first lawsuit.” Winkel v. Miller, 288 Kan. 455,
468, 205 P.3d 688 (2009) (internal quotation marks and
citation omitted). The Kansas Supreme Court has articulated the following relevant principles behind the
res judicata doctrine:
The doctrine of res judicata is a bar to a second action upon the same claim, demand or
cause of action. It is founded upon the principle that the party, or some other with whom
he is in privity, has litigated, or had an opportunity to litigate, the same matter in a former
action in a court of competent jurisdiction.
Penachio v. Walker, 207 Kan. 54, 57, 483 P.2d
1119 (1971). The salutary rule of res judicata
forbids a suitor from twice litigating a claim
for relief against the same party. The rule is
binding, not only as to every question actually
presented, considered and decided, but also to
every question which might have been presented and decided. Hutchinson Nat’l Bank &
Trust Co. v. English, 209 Kan. 127, 130, 495
P.2d 1011 (1972). The doctrine of res judicata
prevents the splitting of a single cause of action or claim into two or more suits; it requires
that all the grounds or theories upon which a
cause of action or claim is founded be asserted
in one action or they will be barred in any subsequent action. Parsons Mobile Products, Inc.
v. Remmert, 216 Kan. 138, 140, 531 P.2d 435
(1975). This rule is one of public policy. It is to
the interest of the state that there be an end
to litigation and an end to the hardship on a
party being vexed more than once for the
same cause. The doctrine of res judicata is,

App. 56
therefore, to be given a liberal application but
not applied so rigidly as to defeat the ends of
justice. Wells, Administrator v. Ross, 204 Kan.
676, 678, 465 P.2d 966 (1970).
. . . . The doctrine prevents a second assertion of the same claim or cause of action
and, regardless of which statute a party uses
to proceed to a tribunal, where the same facts,
same parties and same issues have previously
been litigated before a court of competent jurisdiction which renders a judgment within
its competency, the cause of action is barred.
Wirt v. Esrey, 233 Kan. 300, 308, 662 P.2d 1238
(1983).
Carson v. Davidson, 248 Kan. 543, 548-49, 808 P.2d
1377, 1382 (Kan. 1991) (quoting In re Estate of Reed,
236 Kan. 514, 519-20, 693 P.2d 1156 (1985)); see Cosgrove v. Kansas Dept. of Social and Rehab. Services,
744 F. Supp. 2d 1178, 1186 (D. Kan. 2010) (Kansas appears to follow the transactional approach, that is, the
cause of action includes all claims or legal theories
arising from the same transaction, event or occurrence.), aff ’d, 485 Fed. Appx. 290 (10th Cir. 2012).
Under Kansas law, collateral estoppel, or issue
preclusion, “prevents a second litigation of the same issue between the same parties, even when raised in a
different claim or cause of action.” In re Application of
Fleet for Relief from a Tax Grievance in Shawnee
County, 293 Kan. 768, 778, 272 P.3d 583 (2012) (The
three elements are: “(1) a prior judgment on the merits
that determined the parties’ rights and liability on the

App. 57
issue based upon ultimate facts as disclosed by the
pleadings and judgment; (2) the same parties or parties in privity; and (3) the issue litigated must have
been determined and necessary to support the judgment.” (citing Venters v. Sellers, 293 Kan. 87, 98, 261
P.3d 538 (2011)).
This court is to “afford the state judgment full
faith and credit, giving it the same preclusive effect as
would the courts of the state issuing the judgment.”
Reed v. McKune, 298 F.3d 946, 949 (10th Cir.2002) (internal quotation marks and citation omitted). The preclusive effect will not operate when “the party against
whom an earlier court decision is asserted did not have
a full and fair opportunity to litigate the claim or issue
decided by the first court.” Allen v. McCurry, 449 U.S.
90, 101 (1980). Thus, the federal court “must determine
first whether, under the collateral estoppel rules of
Kansas, the previous rulings by the state trial courts
bar the plaintiffs from maintaining their present civil
rights action; and second, whether the plaintiffs had a
‘full and fair opportunity’ to litigate their claims in
state court.” Phelps v. Hamilton, 122 F.3d 1309, 1318
(10th Cir. 1997). In Phelps, the Tenth Circuit summarized this exception for “full and fair opportunity” to
litigate:
“Redetermination of issues is warranted if
there is reason to doubt the quality, extensiveness, or fairness of procedures followed in prior
litigation.” Montana v. United States, 440 U.S.
147, 164 n. 11, 99 S.Ct. 970, 979 n. 11, 59
L.Ed.2d 210 (1979). In determining whether the

App. 58
state courts’ judgments were fundamentally
flawed, “we may only examine whether the
state proceedings satisfied ‘the minimum procedural requirements of the Fourteenth Amendment’s Due Process Clause.’ ” Kiowa Tribe
of Okla. v. Lewis, 777 F.2d 587, 591 (10th
Cir.1985) (quoting Kremer v. Chemical Constr.
Corp., 456 U.S. 461, 481, 102 S.Ct. 1883, 1897,
72 L.Ed.2d 262 (1982)).
Phelps v. Hamilton, 122 F.3d at 1322. More recently,
the Tenth Circuit added the following to this exception:
This narrow exception applies only where the
requirements of due process were not afforded, see Crocog Co. v. Reeves, 992 F.2d 267,
270 (10th Cir. 1993)—where a party shows “a
deficiency that would undermine the fundamental fairness of the original proceedings,”
Nwosun [v. General Mills Restaurants, Inc.],
124 F.3d [1255,] at 1257 [(10th Cir. 1997)] (citation omitted). See also Mass. Sch. of Law at
Andover, Inc. v. Am. Bar Ass’n, 142 F.3d 26, 39
(1st Cir. 1998) (“[A]s long as a prior . . . judgment is procured in a manner that satisfies
due process concerns, the requisite ‘full and
fair opportunity’ existed.”); 18 Wright & Miller, supra, § 4415, at 366 (opining that full and
fair opportunity exception “mean[s] no more
than that claim preclusion cannot arise from
proceedings that deny due process”). The fairness of the prior proceeding “is determined by
examining any procedural limitations, the
party’s incentive to fully litigate the claim,
and whether effective litigation was limited

App. 59
by the nature or relationship of the parties.”
Nwosun, 124 F.3d at 1257-58.
Lenox MacLaren Surgical Corp. v. Medtronic, Inc., 847
F.3d 1221, 1243 (10th Cir. 2017). Additionally, “claim
preclusion applies to all claims arising from the same
underlying transaction even where the new claims are
based on newly discovered evidence, unless the evidence was either fraudulently concealed or it could not
have been discovered with due diligence.” Id. (citing in
part
“The very nature of due process negates any concept of inflexible procedures universally applicable to
every imaginable situation.” Kremer, 456 U.S. at 482
(internal quotation marks and citations omitted). In
Kremer, the Supreme Court summarized a procedure
that included a public hearing on the merits before an
agency board with the claimant having the opportunity to present argument and evidence followed by
judicial review “to assure that a claimant is not denied
any of the procedural rights to which he was entitled
and” to determine that the agency board’s decision was
not arbitrary and capricious. Id. The Supreme Court
held, “We have no hesitation in concluding that this
panoply of procedures, complemented by administrative as well as judicial review, is sufficient under the
Due Process Clause.” Id. Moreover, “[t]he fact that Mr.
Kremer [claimant] failed to avail himself of the full
procedures provided by state law does not constitute a
sign of their inadequacy.” Id. (citation omitted).

App. 60
“[T]he doctrine of res judicata applies to administrative determinations ‘when the first administrative
proceeding provides the procedural protections similar
to court proceedings when an agency is acting in a judicial capacity.’ ” In re Application of Fleet for Relief
from a Tax Grievance in Shawnee County, 293 Kan.
768, 779, 272 P.3d 583 (2012) (quoting Winston v. Kansas Dept. of SRS, 274 Kan. 396, 413, 49 P.3d 1274
(2002) (citing Parker v. Kansas Neurological Institute,
13 Kan. App. 2d 685, 686, 778 P.2d 390, rev. denied, 245
Kan. 785 (1989))). Put another way, while the doctrine
of res judicata/claim preclusion generally does not apply to administrative agency actions, see Riedmiller v.
Harness, 29 Kan.App.2d 941, 944, 34 P.3d 474 (2001),
rev. denied, 273 Kan. 1037 (2002), the doctrine will apply to administrative determinations when the agency
acts in its judicial capacity and conducts proceedings
so as to provide the necessary procedural protections,
Winston v. Kansas Dept. of SRS, 274 Kan. 396, 413, 49
P.3d 1274, cert. denied, 537 U.S. 1088 (2002). “Therefore, the finality of an administrative decision which
has been appealed to exhaustion is substantially similar to that of a judicial determination. A final judicial
determination is conclusive for all issues raised or
which might have been raised.” Merkel v. Board of
Emergency Medical Services, 2006 WL 3000761, at *4,
144 P.3d 81 (Table) (Kan. App. Feb. 14, 2007) (citing
Kansas Baptist Convention v. Mesa Operating Ltd.
Partnership, 258 Kan. 226, 231, 898 P.2d 1131 (1995)).
In applying the four elements of res judicata/claim
preclusion to the administrative decision and the final

App. 61
judicial determination here, the parties’ arguments
show no dispute over the same claims, the same parties, and a final judgment on the merits. This is consistent with the transactional approach. CFC’s federal
action involves the same transaction, events and occurrences involved in the state proceedings. The extensive
overlap is plainly demonstrated by a simple comparison of CFC’s allegations and arguments made in the
state proceedings with the allegations and arguments
found in CFC’s first amended complaint. All of which
is fully set out above. The same decisions, same actors,
same factors and same procedures challenged and addressed in the state proceedings now drive this federal
litigation. The state’s public policy interest in ending
litigation and hardship caused by multiple suits over
the same cause is plainly implicated by CFC’s federal
suit. In such circumstances, Kansas law favors a liberal application of res judicata.
Of the four elements to claim preclusion, CFC disputes only the third element, that is, whether some of
its claims were or could have been raised in the state
proceedings. CFC offers the general rule that a party
should not be barred from bringing a second suit on the
same transaction when it is based on new facts transpiring after the first suit’s disposition. CFC similarly
cites Kansas and Tenth Circuit holdings that issues
not ripe in the first suit are not subject to res judicata.
CFC specifically argues its procedural due process
claim in count one is not barred by res judicata because
the claim arises from the defendants’ ongoing conduct
in the actual state administrative and judicial review

App. 62
proceedings. At the first state district court proceeding,
CFC alleges OSBC opposed a due process hearing for
CFC which resulted in no timely hearing to contest seizure of assets and delayed a hearing for over three
years. At the administrative hearing on remand, CFC
alleges OSBC denied it adequate discovery on the reasons for closing the bank. At the subsequent judicial
review proceedings, CFC alleges OSBC denied it effective judicial review by failing to file the administrative record. CFC concludes that, these “facts could not
have been made part of Columbian’s claims in the prior
proceedings, because the facts developed during the
course of those proceedings.” ECF# 117, p. 37. For its
legal authority, CFC cites, “ ‘res judicata does not bar
claims that are predicated on events that postdate the
filing of the initial complaint.’ ” Whole Woman’s Health
v. Hellerstedt, ___ U.S. ___, 136 S.Ct. 2292, 2305 (2016)
(quoting Morgan v. Covington, 648 F.3d 172, 178 (3rd
Cir. 2011)).
CFC’s arguments are not persuasive, and its cited
case law does not bear any procedural resemblance or
relevance here. Hellerstedt employed its rule to distinguish between the adjudicated “preenforcement facial
challenge” and the unadjudicated “as-applied challenge.” Id. The Court recognized that material factual
development showing changed circumstances and
new constitutional harm would allow a new constitutional “as-applied” claim. Id. Unlike Hellerstedt, CFC’s
factual allegations address matters that occurred in
and during the pendency of the state litigation and
that could have been raised and reviewed at each

App. 63
subsequent stage of these state proceedings. CFC’s federal claims are not new claims based on facts that it
did not know or could not have known and argued in
the state proceedings. Nor are they claims based on
new facts arising from a different transaction:
[B]roadly speaking, claim preclusion does not
bar subsequent litigation of new claims based
on facts the plaintiff did not and could not
know when it filed its complaint, see Doe v.
Allied-Signal, Inc., 985 F.2d 908, 914 (7th Cir.
1993); cf. Mitchell v. City of Moore, 218 F.3d
1190, 1202-03 (10th Cir. 2000). Critically,
though, if the plaintiff discovers facts during
the litigation that stem from the same underlying transaction, it must supplement its
complaint with any new theories those facts
support. Stone [v. Department of Aviation],
453 F.3d [1271] at 1278-79 [(10th Cir. 2006)];
see also id. at 1280 (“[A] plaintiff ’s obligation
to assert claims arising out of the same transaction continues throughout the course of the
litigation.” (emphasis omitted)). A subsequent
lawsuit will be allowed only if the facts discovered mid-litigation give rise to “new and independent claims, not part of the previous
transaction.” Hatch [v. Boulder Town Council],
471 F.3d [1142] at 1150 [(10th Cir. 2006)]. Put
differently, “a plaintiff can[not] avoid supplementing his complaint with facts that are part
of the same transaction asserted in the complaint, in the hope of bringing a new action
arising out of the same transaction on some
later occasion.” Id.

App. 64
Lenox MacLaren Surgical Corp. v. Medtronic, Inc., 847
F.3d 1221, 1244-45 (10th Cir. 2017).
CFC’s count one involves only one transaction and
alleges claims against the defendants’ litigation conduct at each stage in the state proceeding. The defendants’ litigation conduct, however, at each stage was
always subject to challenge and review at that stage
and the next. The timing and constitutional adequacy
of a post-seizure administrative hearing was litigated
and decided in the first state district proceeding. It also
could have been litigated before the KCOA after the
post-seizure administrative hearing. The adequacy of
discovery in the administrative proceeding could have
been litigated before the KCOA. The lack of a full administrative record before the KCOA was a matter
which CFC could have litigated but chose not to. As
discussed above, the KCOA noted that CFC did not
seek this relief in its judicial review arguments. ECF#
117-19, p. 11. Nor did CFC ask the KCOA to reverse
the mootness ruling and to remand the case back to the
district court for the full administrative record to be
filed and for all other judicial review arguments to be
pursued. CFC’s litigation strategy before the KCOA
does not change the meaning of what claims could have
been litigated in the judicial review proceedings. CFC’s
federal claim in count one turns on the defendants’
litigation conduct occurring in the state proceedings,
and this alleged conduct essentially ended with the
second district court proceeding. Nothing prevented
CFC from having these matters fully addressed before
the KCOA. That CFC failed to avail itself of the full

App. 65
procedures provided by state law does not show them
to be inadequate or unavailing. Finally, the due process
claims alleged in count one were ripe when CFC appealed to the KCOA. That it failed to prevail on appeal
and on its subsequent petition for review does not render any alleged constitutional injury incomplete.
CFC’s due process claim was fixed and final as of its
appeal to the KCOA, and that court expressly undertook a judicial review on the merits of the arguments
presented. ECF# 117-19, p. 10. In sum, the court finds
that the defendants have shown that the state administrative and judicial review proceedings satisfy the
required elements for claim preclusion justifying dismissal of CFC’s federal due process claims.
CFC’s remaining challenge to claim preclusion is
that it was denied due process in the state administrative and judicial review proceedings and that this prevents claim preclusion. CFC first contends the federal
court should decline to give preclusive effect to the
state administrative proceedings, because the defendants cannot show the agency proceeding was judicial
in nature and provided sufficient due process protections. This argument has little traction. The administrative proceedings were appealed and subjected to full
judicial review under the KJRA. Having been judicially appealed to exhaustion, this administrative decision becomes “substantially similar to that of a
judicial determination” making it “conclusive for all issues raised or which might have been raised.” Merkel,
2006 WL 300761, at *4. “[F]ederal courts must give
preclusive effect to factual and legal determinations

App. 66
made by state courts when reviewing state administrative agency actions.” Estate of Bassatt v. Sch. Dist.
No. 1 in the City and County of Denver, 775 F.3d 1233,
1237-38 (10th Cir. 2014) (citing Kremer v. Chem. Constr. Corp., 456 U.S. 461, 485 (1982) (“holding that a
state court decision affirming a state agency determination on a claim of employment discrimination is
entitled to preclusive effect”)); see Ryan v. City of
Shawnee, 13 F.3d 345, 347 (10th Cir. 1993) (“However,
where the arbitration award was challenged and reviewed in state court, as here, section 1738 requires
that we ascertain and give the same effect to the state
court judgment as the courts of Oklahoma would give
a state court decision affirming an arbitration award.
See Marrese v. American Academy of Orthopaedic Surgeons, 470 U.S. 373, 381 (1985).”). The KCOA reviewed
the merits of CFC’s judicial review arguments, and
its decision is a judicial determination comporting
with due process. CFC chose to appeal without raising
issues that required a full administrative record and
without requesting either this full record to be filed or
a remand to district court for review with the full record. CFC’s choice not to avail itself of available procedural protections does not render the state proceedings
constitutionally insufficient and does not change the
character of the state proceedings into non-judicial.
Though unnecessary, this court has no difficulty in
finding that the post-seizure administrative proceedings were conducted by the OSBC acting in a judicial
capacity and following KAPA procedures. For that matter, the court finds nothing of merit to CFC’s cursory

App. 67
allegations over the lack of due process in the administrative proceeding. Its issue with the presiding officer
denying the deposition of former Commissioner Thull
was a procedural ruling fully reviewable in the state
courts had CFC chosen to litigate it. CFC’s claim of
prejudice from this procedural ruling is insubstantial.
The quoted sentence from the presiding officer’s summary judgment order does not show reliance on Thull’s
state of mind as much as it states an obvious conclusion from the fact that Thull expressly relied on the
terms of K.S.A. 9-1902(2), when he issued the Declaration of Insolvency on August 22, 2008. More importantly, the post-seizure administrative proceedings
reveal CFC engaged in significant discovery, had every
opportunity to present its arguments and evidence,
and then pursued judicial review available under state
law to assure that its procedural rights were protected
and the presiding officer’s decision and his objectivity
were subject to broad review under the KJRA. Like the
Supreme Court said in Kremer, “We have no hesitation
in concluding that this panoply of procedures, complemented by administrative as well as judicial review, is
sufficient under the Due Process Clause.” 456 U.S. at
482.
CFC insists this case resembles Scroggins v. Dep’t
of Human Res., 802 F.2d 1289, 1293 (10th Cir. 1986),
and lends to the same conclusion that a Kansas court
would not apply res judicata to this agency decision,
“because it did not believe Kansas would clothe [the]
quasi-judicial proceeding with the vestments of a formal adjudication.” In Scroggins, the plaintiff first filed

App. 68
his federal racial discrimination suit and was then discharged from his state employment four weeks later.
He exhausted his state administrative remedies before
the state civil service board which found that his discharge was reasonable for his failure to perform work
duties, for his misrepresenting work product, for his insubordination, and for his harassing female co-workers.
802 F.2d at 1290. The state district court uphold [sic]
the board’s findings, and the KCOA summarily affirmed without a written order. Id. When the plaintiff
resumed his federal litigation, “the district court found
the alleged discriminatory acts and wrongful termination infused both the state and federal inquiries” and
concluded that res judicata precluded relitigating the
issues in the federal suit. Id. at 1291.
The Tenth Circuit reversed and remanded upon
finding that the administrative agency record and
decision did not show a “reasonably discernible” path
in “both the substantive and procedural history” of
the case. Id. at 1292 (citing and quoting Matter of University of Kansas Faculty v. Public Employees Relations
Board, 2 Kan.App.2d 416, 581 P.2d 817 (1978)). The
state proceedings focused on the reasonableness of
the agency’s termination decision and not on Scroggins’ allegations of racial discrimination. The importance of the state proceedings to the federal
action was to quiet the asserted defense of exhaustion of administrative remedies. “Although appellant
had already filed a federal suit for discrimination in
employment under Title VII, the [subsequent] act of
his [state] dismissal catapulted his claim in the

App. 69
narrower administrative review.” Id. at 1292. While the
appellant argued his state employment termination
was for “nonmerit reasons,” the administrative record
showed no presentation of proof as contemplated for
racial discrimination claims. Id. at 1292. The state
courts on appeal simply “reiterated the Agency’s reasons” and “disregarded without addressing the appellant’s alleged errors.” Id. Concerned over whether the
plaintiff had a full and fair opportunity to litigate the
racial discrimination claims, the Circuit distinguished
Kremer where “the plaintiff was afforded a comprehensive review and hearing before the state commission
on civil rights which had conducted its own investigation” from the plaintiff Scroggins’ administrative case
in which there was “no similarly focused review” of the
racial discrimination allegations. Id. The Circuit was
careful to say that it did “not believe, on the record before us, that the state would clothe this quasi-judicial
proceeding with the vestments of a formal adjudication
of plaintiff ’s claim of racial discrimination.” Id. at
1293 (bolding added). In looking at the judicial review,
the Circuit added:
Because the character of judicial review was
both narrow and conclusory, we are unwilling
to bar appellant’s federal suit under Title VII.
To do so would imprint the determinations of
a state’s quasi-judicial civil service commission, absent any indication to the contrary,
with the symbols of a judicial proceeding.
Moreover, the Court made clear in Kremer v.
Chemical Construction Corp., 456 U.S. at 477,
102 S.Ct. at 1895, that its earlier decisions on

App. 70
the relationship between § 1738 and Title VII
“establish only that initial resort to state administrative remedies does not deprive an individual of a right to a federal trial de novo
on a Title VII claim.” Migra amplifies this decision by establishing that state, not federal,
preclusion must then apply.
Scroggins v. Dep’t of Human Res., 802 F.2d at 1293
(footnote omitted).
In applying Scroggins, one cannot overlook two
things. The Circuit was not confident that the state
proceedings included, considered, and decided the
plaintiff ’s race discrimination claims that had been
first raised in federal court. See Brin v. Kansas, 101
F. Supp. 2d 1343, 1348 (D. Kan. 2000) (cited Scroggins
with this parenthetical comment, “finding no res judicata on issue of race discrimination where the hearing
before the Kansas Civil Service Board focused on the
reasonableness of the dismissal, not on the charges of
discrimination.”) The Tenth Circuit was bothered by
the unique procedural posture arising from the plaintiff Scroggins having filed his federal race discrimination claims first and then was terminated from state
employment and compelled to exhaust state administrative remedies. In contrast, CFC first argued and
litigated the claims of due process in the state proceedings, and these claims simply continued as CFC’s lack
of success and disapproval grew with each stage of the
state proceeding. Moreover, this court is confident that
CFC had sufficient opportunity to raise and argue
in the state proceedings the due process claims now

App. 71
raised in federal court. The post-seizure administrative proceedings were ordered by the state district
court to provide CFC with post-seizure due process.
The judicial review proceedings similarly were focused on protecting the same procedural rights while
addressing all of CFC’s arguments and issues challenging OSBC’s original seizure, its interpretation of
its statutory authority, and its application of this authority to stipulated facts. See Spencer v. Unified
School Dist. No. 501, 1997 WL 614329, at *4 (D. Kan.
1997) (Distinguishing Scroggins on similar grounds).
That some of CFC’s due process claims went unaddressed is largely due to CFC’s litigation strategy
and choices in the state court proceedings, particularly
before the KCOA. See Yapp v. Excel Corp., 186 F.3d
1222, 1229 (10th Cir. 1999) (Claimant’s loss of the opportunity to litigate was due to his own advocacy and
his own assumed risk of claim preclusion. “It is difficult
to label this particular court order as the culprit in
denying Yapp a full and fair opportunity to be heard.”).
The second thing about Scroggins is that the federal suit was based on federal statutory claims of racial
discrimination. There was no Kansas precedent recognizing that general state civil service board findings
would preclude subsequent Title VII proceedings. More
to the point, the KCOA subsequently held, “Until such
time as the Kansas Legislature specifically states that
an administrative action is the exclusive remedy for a
discrimination claim, a negative finding by the Civil
Service Board or a finding of no probable cause by the
KCCR does not preclude a subsequent action in the

App. 72
district court for discriminatory discharge.” Parker v.
Kansas Neurological Institute, 13 Kan.App.2d at 690;
See also University of Tennessee v. Elliott, 478 U.S. 788,
106 S.Ct. 3220, 92 L.Ed.2d 635 (1986) (holding that
findings of fact in unreviewed administrative proceedings do not have preclusive effect by collateral estoppel
in Title VII cases, but that they do have preclusive
effect in § 1983 and other proceedings.); Compare
Morales v. Kansas State University, 727 F.Supp. 1389,
1392 (D.Kan.1989) (where issue of retaliation was fully
litigated before the Kansas Civil Service Board, such
finding had collateral estoppel effect).
In sum, Scroggins is not only different on its facts
but is also distinguishable on those factors driving its
holding. Instead of sharing “many similarities” to this
case, Scroggins’ criticisms of the state proceedings are
best read as only accentuating the different focuses between the state and federal proceedings. In doing so,
the Circuit in Scroggins was emphasizing that the
plaintiff was not afforded full and fair opportunities for
litigating his racial discrimination charges at any time
before the civil service board and in the perfunctory judicial review proceedings. As already discussed above,
the same cannot be said in the instant case. CFC’s due
process challenges were consistently and continuously
argued in one form or another throughout the state judicial review process. See MACTEC, Inc. v. Gorelick,
427 F.3d 821, 832 (10th Cir. 2005) (Litigant’s chance to
assert theory later before the reviewing court is sufficient and subject to res judiciata [sic]); McKinney v. Pate,
20 F.3d 1550, 1563 (11th Cir. 1994) (“[O]nly the state’s

App. 73
refusal to provide a means to correct any error resulting from the bias would engender a procedural due
process violation.”), cert. denied, 513 U.S. 1110 (1995);
There was no refusal here to provide full judicial review, just as there is nothing perfunctory about the
KCOA’s decision here. The opportunities to correct the
errors below provided due process.
Finally, as demonstrated in the adversarial character of the state litigation pursued, the detailed
presentations of issues and evidence made, and the extensive and reasoned decisions rendered, the state proceedings are hardly what one would consider as falling
below the minimum procedural requirements of the
Fourteenth Amendment’s Due Process Clause. See
Mitchell v. Albuquerque Bd. of Educ., 2 F.3d 1160 (10th
Cir. Aug. 13, 1993) (unpub) (plaintiff argued no full and
fair opportunity due to bias of reviewing administrative agency and inability to subpoena witnesses, but
the Tenth Circuit found these equities “clearly outweighed by substantial procedural and substantive
due process provided to Plaintiff ” noting “the thoroughness of the hearings and subsequent appeals”).
The court finds no solid “reason to doubt the quality,
extensiveness, or fairness of procedures followed in”
the state proceedings. See Montana v. United States,
440 U.S. at 164 n. 11. The state proceedings as a whole
provided an adequate venue for CFC to challenge the
merits of the seizure and receivership, and to raise
all issues on statutory authority, bias, discovery, and
any other procedural questions. Not prevailing in the
state proceedings does not necessarily equate with the

App. 74
denial of due process. See Weaver v. Boyles, 172
F.Supp.2d 1333, 1341 (D. Kan. 2001) (Losing in state
court is not evidence of bias on the part of the state
court. (quotation marks and citation omitted)), aff ’d,
26 Fed. Appx. 908 (10th Cir. 2002). Something more
needs to be alleged and shown. For that matter, this
court’s jurisdiction does not extend to sitting in appellate review of the state courts. See Sparkman Learning
Ctr. v. Arkansas Dept. of Human Services, 775 F.3d 993,
998 (8th Cir. 2014) (Litigants may “not bring claims before a federal court that were already fully decided by
state courts in what would amount to appellate review
of the state court ruling.” (citations omitted)). For all
these reasons that fully address the arguments that
have been briefed by the parties, the court finds the
plaintiff ’s § 1983 due process claims are barred by res
judicata/claim preclusion based on the KCOA’s decision, specifically:
Columbian argues that banks and their owners are entitled to due process, citing Franklin
Sav. Ass’n v. Office of Thrift Supervision, 35
F.3d 1466, 1472 (10th Cir.1994), and Woods v.
Federal Home Loan Bank Bd., 826 F.2d 1400,
1411 (5th Cir.1987), which states that “owners
of a FSLIC-insured savings and loan association clearly have the constitutional right to be
free from unlawful deprivations of their property.” We agree. Clearly, Columbian should be
entitled to notice and an opportunity to be
heard, which was provided to them when they
received review from the Commissioner and
the Kansas courts under the KJRA.

App. 75
ECF# 117-19, p. 10. This court must give the same full
faith and credit to this decision as it enjoys in the Kansas courts, and CFC had a full and fair opportunity to
litigate its due process claims in these state proceedings as decided by the KCOA.
IT IS THEREFORE ORDERED that the defendants’ motion for summary judgment, or in the alternative, judgment on the pleadings (ECF# 104) is granted
on the grounds stated above;
IT IS FURTHER ORDERED that the defendants’
objection (ECF# 121) to the magistrate judge’s order is
denied as moot.
Dated this 17th day of May, 2018, Topeka, Kansas.
s/ Sam A. Crow
Sam A. Crow,
U.S. District Senior Judge

App. 76
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
------------------------------------------------------------------------------------------------------------------

COLUMBIAN FINANCIAL
CORPORATION,
Plaintiff - Appellant,
v.

No. 18-3121

MICHELLE W. BOWMAN, in
her official capacity as Bank
Commissioner of Kansas, et al.,
Defendants - Appellees.
------------------------------------------------------------------------------------------------------------------

ORDER
------------------------------------------------------------------------------------------------------------------

(Filed May 7, 2019)
Before BRISCOE, McKAY, and HOLMES, Circuit
Judges.
------------------------------------------------------------------------------------------------------------------

Appellant’s petition for rehearing is denied.
The petition for rehearing en banc was transmitted to all of the judges of the court who are in regular
active service. As no member of the panel and no judge
in regular active service on the court requested that
the court be polled, that petition is also denied.

App. 77
Entered for the Court
/s/ Elisabeth A. Shumaker
ELISABETH A. SHUMAKER,
Clerk

